     U.S. ELECTION ASSISTANCE COMMISSION
          OFFICE OF INSPECTOR GENERAL




                        Management Letter:
        Issues Identified During the Audit of the
         U.S. Election Assistance Commission’s
          Fiscal Year 2009 Financial Statements




NO. I-PA-EAC-01-09(A)
NOVEMBER 2009
                             U.S. ELECTION ASSISTANCE COMMISSION
                                    OFFICE OF INSPECTOR GENERAL
                                  1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005



                                                                      November 13, 2009


To:      Gineen B. Beach
         Chair, U.S. Election Assistance Commission

From:    Curtis W. Crider
         Inspector General

Subject: Management Issues Identified During the Audit of the U.S. Election Assistance
         Commission’s Fiscal Year 2008 Financial Statements
         (Assignment No. I-PA-EAC-01-09(A))

        We contracted with Leon Snead & Co. (Leon Snead), an independent certified
public accounting firm, to audit the U.S. Election Assistance Commission’s
(Commission) financial statements as of September 30, 2009 and for the year then ended.
In conjunction with its audit, Leon Snead noted certain matters involving internal control
and other operational matters that should be brought to management’s attention. These
matters, which are discussed in the attached letter, are in addition to those reported in
Leon Snead’s audit report on the Commission’s financial statements (Assignment No. I-
PA-EAC-01-09) and do not constitute significant deficiencies as defined by the American
Institute of Certified Public Accountants.

      Based on the information provided in the November 9, 2009 response to the draft
management letter, we consider all of the recommendations resolved but not
implemented. The OIG will monitor the implementation of the recommendations.

         The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendations, and
recommendations that have not been implemented. Therefore, we will include the
information in the attachment in our next semiannual report to Congress. The distribution
of this report is not restricted, and copies are available for public inspection.

        We appreciate the cooperation and assistance of EAC personnel during the audit.
If you or your staff has any questions, please contact me at (202) 566-3125.

Attachment

Cc: Commissioners Hillman, Davidson
    Executive Director
LEON SNEAD 	                           Certified Pllblic Accountants
        P.c. __________________________-'-------''-----'___
'" COMPANY,                            & Management Cr>1!511/tanls

416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-82]0
loonsnead.oompan ypC®erob.oom



                                                    Management Letter


              The Commission and Inspector General
              U.S. Election Assistance Commission


              We have audited the financial statements of the U.S. Election Assistance Commission
              (EAC) as of and for the years ended September 30, 2009 and 2008, and have issued our
              report thereon dated November 10, 2009. In planning and perform ing our audit of the
              financial statements of the EAC, we considered internal control over financial reporting
              in order to determine our auditing procedures for the purpose of expressi ng an opinion on
              the financial statements.

              In performing our aud it, we noted matters involving internal control that are presented for
              your consideration. These comments and recommendations are intended to improve
              internal contro l within the EAC. We discussed these findings and recommendations with
              management. Our comments on these matters are set forth below.

              I. Capita l Assets Subsidiary Records

                    The fiscal year 2008 EAC financial statement audit report identified that EAC had not
                    always properly capitalized assets, and instead had recorded assets as an expense in
                    the year purchased. During fi scal year 2009, EAC undertook a detailed analysis of its
                    accounting records to correct prior errors in accounting for capital assets. However,
                    EAC has not yet been able to compile complete subsidiary supporting records to
                    physically identify each capital asset that supports the general ledger.

                    Federal Financial Management System Requirements, Core Financial System
                    Requirements, issued by the OMB, require that " ... Subsidiary ledgers must support the
                    genera l ledger at various leve ls of detail , whether totally integrated as part of the core
                    financial system or interfaced from other system s."

                    Recommendation

                    Develop a time-phased corrective action plan to compile subsid iary records to support
                    EAC 's capital assets.




          Generated by a Trial Version of NetCentric Technologies’ CommonLook® Acrobat® Plug-in. www.net-centric.com
   Agency Response

   EAC officials, in a response to the management letter, dated November 9, 2009,
   advised that a comprehensive list of EAC’s furniture, capitalized and expensed, has
   been prepared and will be used as a starting point with which to identify those assets
   that should be included in the capital asset records for the agency. The agency
   estimated that the agency would have a complete capital asset subsidiary record by
   the end of the first quarter of fiscal year 2010.

2. Accounts Receivable

   EAC had not established a policy for determining an allowance for estimated
   uncollectible amounts for its accounts receivables. Although the footnotes disclosed
   that the EAC would use the direct write off method, this is not an acceptable method
   of accounting for losses due to uncollectible amounts. In addition, we identified an
   account totaling approximately $15,000 that was shown in EAC records as a 2006
   “loan” to an EAC employee.

   Statement of Federal Financial Accounting Standards (SFFAS) No. 1: provides that
   losses on receivables should be recognized when it is more likely than not that the
   receivables will not be totally collected. Losses due to uncollectible amounts should
   be measured through a systematic methodology. The systematic methodology should
   be based on analysis of both individual accounts and a group of accounts as a whole.

   EAC addressed this issue and implemented accounting policies for determining
   allowances for uncollectible amounts through a systematic methodology. EAC
   officials advised that they are researching the matter relating to the “loan” to the prior
   employee, and the actions the agency should take on this matter.

   Recommendation

   Develop policies and procedures for establishing an allowance for losses for EAC
   accounts receivables. Determine the reasons for the $15,000 employee accounts
   receivable, and take appropriate actions to attempt to collect the amount due.

   Agency Response

   EAC officials advised that the accounting manual was completed effective September
   30, 2009, and contains the EAC’s accounts receivable policies regarding collection
   standards, and write-off and close-out procedures.

We have incorporated the agency’s comments to our recommendations this management
letter, and have attached a copy of the response, in its entirety, as an attachment to this
report.




Leon Snead & Company, P.C.                   2
   The EAC's written response has not been subjected to the auditing procedures applied in
   the audit of the financial statements and, accordingly, we express no opinion on it.

   This report is intended solely for the information and use of the management the U.S.
   Election Assistance Commission, the Office of Inspector General, the Office of
   Management and Budget, and the Congress, and is not intended to be and should not be
   used by anyone other than these specified parties.

   ~~~~COMp~U(IPC
   Leon Snead & Company, P.C.
   November 10, 2009




   Leon Snead & Company, P.e.                   3


Generated by a Trial Version of NetCentric Technologies’ CommonLook® Acrobat® Plug-in. www.net-centric.com
             U.S. ELECTION ASSISTANCE COMMISSION
             1225 NEW YORK AVENUE, NW., SUITE 1100
             WASHINGTON , D.C. 20005

                                                                                November 9, 2009

    Memorandum

    To: 	     Curtis W. Crider
              Inspector General


     From: 	 Gineen Bresso Beach
             Chair, u.s. Election Assistance Commission

     Subject: Fiscal Year 2009 Management Letter

    The Election Assistance Commission (EAC) is in agreement with the two matters noted
    in the above referenced report. We offer our responses below.

        1. 	 Capital Assets Subsidiary Records - Develop a time-phased corrective action plan
             to compile subsidiary records to support EAC's capital assets.

            Management understands the need to compile a subsidiary record to support its
            bulk capital assets. Aided by the Administration Office of the EAC, a
            comprehensive list of all EAC's furniture, capitalized or expensed, has been
            prepared. Management will use this list as a starting point with which to identify
            those assets included in the capital asset records.

            Due to anticipated time constraints and delays in compiling needed records from
            the General Services Administration, Management targets the end of the first
            quarter of Fiscal Year 2010 as the estimated completion date for a thorough and
            accurate capital asset subsidiary record.

        2. 	 Accounts Receivable - Develop policies and procedures for establishing an
             allowance for losses for EAC accounts receivables. Determine the reasons for the
             $15,000 employee accounts receivable, and take appropriate actions to attempt to
             collect the amount due.

            EAC 's Accounting manual was completed effective September 30,2009. Section
            2.3.10 of the manual details EAC's Accounts Receivable Allowance Policy,
            Collection Standards, and Write-Off and Close-Out Procedures.

            As to the outstanding balance at September 30,2009, the most significant balance
            is for a single employee who left the agency in late 2004. Research is being done
            to determine what collection procedures, if any, have been performed to date.
            This involves working with the General Services Administration (GSA) and the
            Office of Personnel Management (OPM) and EAC's Office of the General
            Counsel.


                       Tel: (202) 566-3100       www.eac.gov       Fax: (202) 566-3127 

                                         Toll free: 1 (866) 747-1471 


Generated by a Trial Version of NetCentric Technologies’ CommonLook® Acrobat® Plug-in. www.net-centric.com
